United States Department of Agriculture
Office of Inspector General




Verifying Credentials of Veterinarians
Employed or Accredited by USDA




                                          Audit Report 50601-0001-31
                                          January 2013
                                       Verifying Credentials of Veterinarians Employed or
                                                     Accredited by USDA

                                                      Audit Report 50601-0001-31



What Were OIG’s
Objectives

The overall objective was to
evaluate the effectiveness of      OIG audited APHIS and FSIS to assess
USDA’s verification of the
credentials of veterinarians
                                   whether their internal controls were
employed by USDA or those          adequate to ensure applicants or employees
used to carry out USDA             have the necessary credentials to be
functions.
                                   employed or accredited as USDA
What OIG Reviewed                  veterinarians.

OIG reviewed APHIS’ and            What OIG Found
FSIS’ internal control
structure for the hiring and       The Office of Inspector General (OIG) determined that the United
accrediting of veterinarians to    States Department of Agriculture (USDA)—specifically the Food
assess the adequacy of the         Safety and Inspection Service (FSIS) and the Animal and Plant Health
process to ensure USDA             Inspection Service (APHIS)—needs to strengthen its hiring processes
veterinarians have the             to ensure that candidates are qualified for the Federal veterinarian
necessary credentials.             positions to which they applied. USDA veterinarians are essential in
                                   safeguarding public and animal health, and it is important that they
What OIG Recommends                have the appropriate level of education and experience needed to
                                   perform their job. It is the responsibility of agencies’ Human
APHIS and FSIS should              Resources (HR) departments to ensure that veterinarians are qualified
establish control procedures       to perform their essential job functions by reviewing applicants’
on what constitutes an official    information.
transcript, appropriate
transcript delivery methods,       However, we found that APHIS and FSIS HR departments did not
and the means to verify            adequately verify prospective veterinarians’ educational requirements,
transcripts, equivalent degrees,   equivalent degrees, and specialized experience when it qualifies the
and specialized experience         applicant for higher pay. For example, agencies often accepted
when it qualifies the applicant    photocopies of transcripts submitted by the applicant in lieu of official
for higher pay.                    transcripts as proof of education. This occurred because the agencies
                                   relied primarily on the Office of Personnel Management’s (OPM)
                                   generalized guidelines and did not establish agency-specific guidance
                                   or procedures to verify and validate veterinarians’ credentials. As a
                                   result, the Department may unknowingly hire unqualified employees
                                   to perform critical food safety duties.

                                   APHIS and FSIS generally agreed with our recommendations and we
                                   accept management decision for these recommendations.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250




DATE:          January 30, 2013

AUDIT
NUMBER:        50601-0001-31

TO:            Kevin Shea
               Acting Administrator
               Animal and Plant Health Inspection Service
               ATTN: Marilyn Holland

               Alfred V. Almanza
               Administrator
               Food Safety and Inspection Service
               ATTN: William C. Smith

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Verifying Credentials of Veterinarians Employed or Accredited by USDA


Attached is a copy of the final report on the subject audit. Your written responses to the official
draft report (dated December 5, 2012, and December 6, 2012, respectively) and the Office of
Inspector General’s (OIG) position are incorporated in the relevant Recommendations section of
the report.

Based on your responses to our official draft report, we accept management decision for the
recommendations in the report. You should follow your internal agency procedures for
providing final action correspondence for the recommendations to the Office of the Chief
Financial Officer. In accordance with Departmental Regulation 1720-1, final action should be
completed within 1 year of the date of the management decisions to preclude being listed in the
Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Background and Objectives ....................................................................................1
Section 1: Verification of Veterinarian Credentials ............................................4
   Finding 1: USDA Does Not Always Obtain and Verify the Credentials of
   Veterinarian Applicants .......................................................................................4
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................9
Scope and Methodology .........................................................................................11
Abbreviations .........................................................................................................13
Agencies' Responses ...............................................................................................15
Background and Objectives 

Background
In November 2005, the Food Safety and Inspection Service (FSIS) hired a veterinarian whose
responsibilities included certifying the safety of pork shipped to St. Petersburg, Russia. Over
four years later, a news broadcast claimed this individual provided false credentials. Eventually,
in January 2012, this individual pled guilty to fraudulently creating and submitting false
academic credentials in order to obtain employment and a subsequent promotion as an FSIS
veterinarian.

The United States Department of Agriculture (USDA) employs and accredits veterinarians to
perform a variety of key functions. First, veterinarians at FSIS, the public health regulatory
agency, work toward preventing foodborne illnesses and protecting public health by
investigating outbreaks of these illnesses, assessing State inspection programs, and designing
new inspection systems and procedures. For example, public health veterinarians (also called
veterinary medical officers) are leading members of FSIS' regulatory team, with the primary
responsibility for making the critical examinations and dispositions of animals that are
slaughtered and presented for further processing before the meat and poultry products are made
available for consumption to the public. Second, the Animal and Plant Health Inspection Service
(APHIS) is charged with protecting U.S. agriculture, in part by setting zoosanitary1 standards
that allow trade without the threat of introducing foreign diseases into the U.S. or diseases that
are indigenous in the U.S. into foreign countries. Veterinary Services, a part of APHIS,
prevents, controls, or eliminates animal diseases and monitors and promotes animal health and
productivity.

APHIS Veterinary Services also administers the National Veterinarian Accreditation Program, a
voluntary program that has over 63,000 accredited veterinarians. These veterinarians are
considered the first line of defense for catastrophic disease events and perform certain regulatory
functions on USDA's behalf. These veterinarians are certified and work cooperatively with
Federal veterinarians and State Animal Health Officials.

As of 2011, APHIS and FSIS employed 1,713 veterinary medical officers (VMOs). APHIS
employs 673 VMOs, of whom 30 were hired in fiscal year 2010 and 34 in fiscal year 2011.2
APHIS has also accredited 63,160 non-Federal veterinarians, of whom 2,893 were accredited in
fiscal year 2010 and 3,094 veterinarians in fiscal year 2011.3

FSIS employs 1,040 VMOs—103 of whom were hired in fiscal year 2010 and 82 in fiscal year
2011. 4 The majority of both agencies' VMOs are educated in the United States; nearly a quarter




1
  Zoosanitary pertains to the cleanliness of animals or animal products.
2
  As of November 30, 2011.
3
  As of December 1, 2011.
4
  As of December 1, 2011.

                                                                           AUDIT REPORT 50601-0001-31   1
of veterinarians in the United States receive educations from foreign, non-accredited
institutions.5

The Office of Personnel Management (OPM) is responsible for developing and issuing minimum
qualification standards, policies, and instructions governmentwide, including the standards for
the Veterinary Medical Science Series (0701) or veterinary medical officers. Per OPM, APHIS'
and FSIS' Human Resources (HR) departments have delegated examining authority and are
responsible for qualifying applicants.6 The HR departments' responsibilities include reviewing
resumes and supporting documentation for adequacy and completeness to ensure the applicants
are qualified. Because of the severe shortage of candidates for these positions, OPM has
approved direct-hire authority governmentwide.7

APHIS and FSIS HR officials also determine eligibility for employment, in part, by specialized
education requirements. According to OPM, the candidate must have graduated with at least a
Doctor of Veterinary Medicine (DVM) degree from a veterinary school or have received an
equivalent form of education.8, 9 If the applicant has a degree from a foreign, non-accredited
institution, then the applicant must provide proof of English proficiency and one of the following
equivalency requirements:

    ·    American Veterinary Medical Association (AVMA), Educational Commission for
         Foreign Veterinary Graduates certification;
    ·    Possession of a permanent, full, and unrestricted license to practice veterinary
         medicine;10
    ·    Acceptance and placement into a veterinary medicine advanced degree, Master's degree,
         or residency or graduate program at a school or college of veterinary medicine, accredited
         by the AVMA.

For higher grade levels, the applicant must also have one year of specialized experience or
advanced schooling in an area of specialization, such as import/export operations or food safety.

Objectives

The overall objective of this audit was to evaluate the effectiveness of USDA's verification of the
credentials of veterinarians employed by USDA or those used to carry out USDA functions.11

5
  This number is based on an approximation from FSIS, as well as our random sample.
6
  OPM delegates examining authority to the headquarters level. USDA is authorized to examine applicants for
positions in the Department. The Department may reassign examining responsibilities to subordinate offices such as
APHIS and FSIS Human Resource offices, which serve as “delegated examining offices.”
7
  Direct-hire authority includes veterinary positions, GS-0701 at GS-11 through 15.
8
  The term “veterinary school” refers to a school accredited by the American Veterinary Medical Association
Council on Education (AVMA).
9
  Equivalent form of education may include a Doctor of Veterinary Medicine degree at a school or college of
veterinary medicine accredited by the AVMA.
10
   License obtained in a State, District of Columbia, the Commonwealth of Puerto Rico, or a territory of the United
States.
11
   APHIS accredits non-Federal veterinarians under the National Veterinary Accreditation Program. These
veterinarians carry out USDA functions. During our audit work, we noted no issues with the program.

2       AUDIT REPORT 50601-0001-31
Specifically, we assessed whether APHIS' and FSIS' internal controls were adequate to ensure
applicants or employees have the necessary credentials to be employed or accredited as USDA
veterinarians.




                                                           AUDIT REPORT 50601-0001-31          3
Section 1: Verification of Veterinarian Credentials

Finding 1: USDA Does Not Always Obtain and Verify the Credentials of
Veterinarian Applicants
We found weaknesses in key controls over APHIS' and FSIS' hiring processes. Specifically,
APHIS' and FSIS' HR personnel did not take sufficient steps to ensure that candidates were
qualified for the veterinarian positions they were applying for, which is one of an HR
department's chief roles. While our review did not include verification of credentials in the 41
cases we sampled, both agencies did not ensure veterinarians met the required OPM qualification
standards prior to appointment. First, APHIS' and FSIS' HR officials accepted applicant-
submitted copies of official transcripts, rather than official transcripts provided by the awarding
institutions. Second, both agencies did not verify that applicants educated at foreign, non-
accredited institutions met the additional requirements. Lastly, both agencies did not know
whether the necessary specialized experience listed on the resume was verified when required for
higher pay. This occurred because APHIS and FSIS management did not make policy decisions
and establish agency-specific verification methods to address issues related to the applicants'
documents and, instead, relied on OPM's generalized guidance.

FSIS maintained it followed the requirements of OPM and provided a comprehensive book
containing policies and procedures it feels met those requirements. However, OPM's
requirements are not specific enough to verify educational requirements, equivalent degrees, and
specialized experience. For example, we noted that the guidance does not provide specific
information concerning acceptable transcript delivery methods, means to validate official
transcripts and equivalent degrees, or methods to verify specialized experience. Without
developing agency-specific procedures on the verification process for HR and other hiring
personnel to follow, the Department may unknowingly employ veterinarians who are not
qualified to perform their duties. Because veterinarians are integral in determining the safety of
food for human consumption, it is crucial that they have the appropriate level of education and
experience needed to perform their jobs.

        Official Transcripts

        As part of the application process, prospective FSIS and APHIS veterinarians are
        required to provide HR officials with documentation demonstrating they have the
        required experience and education for these positions. All veterinarians must have a
        DVM degree by the time they are hired. While an applicant can provide a copy of
        official transcripts during the initial phases of the application process, according to OPM
        guidance, hiring personnel must have and verify the official records before that applicant
        can be hired.12 When we spoke with OPM officials, they stated that applicants were
        responsible for contacting the awarding school to ensure that the school forwarded

12
   The OPM Memorandum issued to Human Resources Directors, Subject “Official Documents,” dated July 7, 2009,
states that “[o]nce selected and prior to appointment, applicants must provide official documentation, for example,
an official college transcript if they qualified based on education.”

4     AUDIT REPORT 50601-0001-31
         official transcripts. OPM officials do not consider transcripts to be official if provided
         directly from the applicant. OPM officials said that official transcripts instead should be
         sent directly from the school, via a sealed envelope, a secured website, or secured email.

         However, we found that APHIS' and FSIS' HR personnel accepted both electronic and
         hard copy submissions, usually relying on applicants to provide the documents.13 In
         many instances, HR personnel accepted copied versions of official transcripts, in lieu of
         official transcripts. In other instances, HR personnel did not receive any form of the
         transcript. For example, in our sample, we did not locate 5 of 21 (24 percent) applicants'
         transcripts in the electronic Official Personnel File (eOPF) system and APHIS did not
         know if it had received transcripts from the 5 applicants.14 As of May 2012, all 5 official
         transcripts have been uploaded into the eOPF. FSIS' HR personnel likewise stated that
         they rarely obtained an original transcript.

         These issues occurred because neither APHIS nor FSIS developed agency-specific
         guidance or procedures to address these issues.15 Therefore, both agencies' HR offices
         relied exclusively on OPM's implicit guidance, which does not specify how official
         transcripts should be received. OPM's guidance is not specific enough to stand alone as a
         sufficient control. Because APHIS and FSIS operated without formal procedures or
         guidance in place, regional HR personnel believed the documents they received were
         sufficient to verify the degree, while the APHIS national office was unaware such
         unofficial documents were being accepted as official versions.16

         APHIS' and FSIS' controls that were in place over the transcript verification process were
         not sufficient to prevent these errors. At the time of our audit, FSIS had a multi-leveled
         second-party review to qualify applicants and verify that copies of transcripts were
         received; however, this review did not verify that the transcripts were official prior to
         appointment. While FSIS officials stated that they prefer clearer guidance from OPM
         before changing processes regarding official transcripts and equivalent degrees, they
         acknowledged that they should have better controls on what they can accept as an official
         transcript. After our January 2012 briefing with HR officials, FSIS has taken further
         measures to ensure that the official document is obtained and uploaded into the eOPF.17
         First, FSIS' job postings now specify that applicants must provide “original Official


13
   APHIS does not accept computer print-outs of official transcripts.
14
   After researching the issue, APHIS HR staff stated in their written response, dated September 28, 2012, that two
of the applicants included a copy of the official transcript in their online application, but those were not scanned (as
required) into the eOPF. Indications are that HR did receive the official transcripts from the other three, but again,
those were not scanned (as required) into the eOPF.
15
   Both agencies developed standard operating procedures to provide guidance on processing of applications. FSIS
issued advisory memos to clarify OPM's guidance and an Interview Policy directive. However, the documents do
not provide guidelines on the issues we identified.
16
   In our briefing with the APHIS national office, officials participated by providing comments whereas in our
briefing with FSIS, the primary participants were FSIS HR officials in Minneapolis. The three national office
officials who attended the briefing provided no comments to our potential issues, emphasizing that the HR office in
Minneapolis oversees the hiring of veterinarians.
17
   eOPF is a file containing records that cover a civilian federal employee's employment history and is the official
record once documents have been scanned into an electronic format.

                                                                            AUDIT REPORT 50601-0001-31                 5
         transcripts” if selected for a position. Second, FSIS states that it now visibly certifies the
         original official document, prior to scanning it into the eOPF in order to visually
         designate these electronic copies as official.

         On the other hand, APHIS has not sufficiently addressed these issues. Although APHIS
         officials have strengthened their second-party review to include checking that they
         received official documents, APHIS considers any transcript that has an official stamp on
         it as official, even if it is a photocopy submitted by the applicant. Additionally, APHIS'
         job listings do not specify that applicants need to provide original transcripts, but, instead,
         state: “you MUST submit copies of official transcripts before your selection may be
         confirmed.” APHIS officials also explained that they do not have a procedure in place to
         ensure that the official document is stored and maintained in the eOPF. As a result, when
         APHIS officials checked applicant files for lost transcripts, the agency could not confirm
         that they had received official transcripts.18

         In our May 2012 meeting with APHIS HR, staff members acknowledged that a better
         process should be established to ensure that documents were uploaded into the eOPF and
         briefly discussed how that process would work. While APHIS officials do believe it is
         important to develop a procedure to ensure that transcripts and other official documents
         are filed in the eOPF, the processes are not in place and they have not addressed the
         issues regarding obtaining official transcripts and designating them as official prior to
         uploading into the eOPF. We believe that these issues are significant enough to require
         corrective actions and remain concerned that errors—such as missing transcripts—will
         continue to go unnoticed and unaddressed without processes in place.

         Documentation from Non-Accredited Institutions

         For graduates of foreign, non-accredited veterinary schools, OPM officials stated that the
         agency should contact the applicable entity to validate additional required documents.19
         In addition to an official transcript, these documents include either an Educational
         Commission for Foreign Veterinary Graduates certificate; State veterinary license; or
         acceptance letter from an AVMA veterinary medical school for placement into an
         advanced degree, postgraduate educational program, or training program; as well as proof
         of English language proficiency. The most commonly used form of documentation to
         support the equivalent degree is acceptance letters, which FSIS officials acknowledged
         could be falsified. Because of this, OPM officials suggest these documents be verified.




18
   Because HR personnel did not distinguish between unofficial and official documents before putting them into
personnel files, it was impossible to determine whether applicants fulfilled the requirement of providing official
transcripts. Our sample size was small (20 out of 1,040 for FSIS and 21 of 673 for APHIS) and it was not in our
scope to perform a thorough review of applicant files to determine eligibility or the eOPF system's quality; our audit
scope was to determine only whether the agencies received official transcripts and other supporting documentation.
19
   OIG acknowledged that obtaining documents from the source may be cost-prohibitive and problematic for the
additional documents required for foreign-educated veterinarians. While OPM acknowledges that agencies may
accept copies of original documents, OPM suggests verifying the authenticity of the documents with the originator.

6     AUDIT REPORT 50601-0001-31
           However, we found that FSIS and APHIS HR personnel did not take the necessary steps
           to verify official, required documentation from applicants educated at foreign,
           non-accredited schools. FSIS HR personnel commented that they do not contact the
           originator of these documents unless there is an obvious problem, and make no further
           efforts to verify once the document has been received. HR personnel acknowledged that
           they do not routinely take steps to verify authenticity of documents, beyond the careful
           review of the documents, but rely on a number of investigation steps that come later in
           the process to verify credentials. APHIS HR personnel stated they do not verify the
           documents at all, but merely look for the words “veterinary university” in the letterhead
           or body of the text.

           This occurred because neither agency has a procedure in place for their personnel to
           follow when verifying documentation. OPM stated that agencies should develop
           guidance and fine-tune OPM's overall guidance to suit their needs. As part of the
           Interagency Agreement between OPM and USDA, OPM agreed to provide “basic
           technical assistance,” while the Department agreed to establish “policies and procedures
           on the acceptance and processing of applications.” Like most agencies, FSIS and APHIS
           have applicants sign the Declaration for Federal Employment, in which the applicants
           certify that the information they have provided is accurate and truthful. However, we
           believe self-certification is not an adequate control to reduce the risk of falsification. HR
           personnel do not take further measures to verify the accuracy themselves, but rely upon
           investigative steps to verify this information. For example, the Special Agency Check
           verifies the applicants' identity and criminal history; however, the check does not ensure
           the applicants' package is truthful, as demonstrated by the FSIS case of hiring a
           non-veterinarian. In addition, background investigations are performed after the
           applicant is hired. Therefore, we maintain that both agencies' verification processes do
           not safeguard against potential cases of falsified documents and should be performed
           prior to a tentatively selected applicants' start date.

           Specialized Experience

           Federal qualification standards for higher-level veterinarian positions (at a GS 12 level or
           Pay Band 4 and above) require applicants to have at least 1 year of specialized experience
           or advanced schooling. OPM guidance suggests verifying this experience through
           reference checks once the applicant pool is narrowed down to the top candidates.20
           APHIS guidance states that APHIS officials should never make an offer without first
           doing an exhaustive check of the applicant's background. This investigation includes a
           comprehensive reference check, going back five years, and contacting a minimum of
           three sources that are knowledgeable about the applicant's abilities. While FSIS does not
           require pre-employment reference checks, it suggests verifying experience and has
           created a list of the information FSIS can request from previous employers, which
           includes the applicant's job title, description of duties, and dates employed.



20
     OPM, Reference Checking, page 3, November 20, 2008.


                                                                  AUDIT REPORT 50601-0001-31          7
       We found that both FSIS and APHIS were uncertain whether they had performed these
       reference checks. Although both agencies recommend or require verifying experience,
       neither agency had controls in place to confirm whether or not reference checks were
       performed. This occurred because HR personnel and selecting officials performed their
       tasks independent of each other, without proper coordination. HR personnel often only
       checked applicants' resumes to ensure applicants had the requisite experience and
       assumed selecting officials performed the reference check. However, selecting officials
       often believed that agencies' HR offices were performing the reference check; neither
       party confirmed that the appropriate steps were being taken. FSIS HR personnel
       commented that background checks are completed on every new hire, which include
       checking on the applicant's previous five years of employment. However, since the
       veterinarian position is one of public trust, the background investigation may not be
       completed until after the new hires have been on board for six months or longer.
       Therefore, APHIS and FSIS should consider establishing a process to document that the
       specialized experience is verified prior to hiring. Without a process in place, FSIS and
       APHIS cannot be certain that they are verifying that applicants have the required
       experience for their position.

Because of these internal control weaknesses, APHIS and FSIS have reduced assurance that
veterinarians hired are qualified for their positions. If supporting documents, such as official
transcripts, are not received or appropriately reviewed, agencies may hire unqualified candidates
to perform critical roles in ensuring the safety and quality of the Nation's food supply. In
addition, accepting photocopied documents without validation has a higher risk of falsification,
and APHIS' and FSIS' insufficient oversight do not ensure that tentatively selected applicants
have achieved the specialized experience listed in their applications and resumes. APHIS
officials did not believe that the current verification process is an area of concern, noting that
cases such as the 2005 fraudulent FSIS veterinarian case are rare. However, without performing
background reviews on all veterinarians currently on board, APHIS cannot know with certainty
whether or not their employed veterinarians possess the necessary credentials. As this would be
a time consuming and costly task to perform, we are not including this recommendation at this
time. However, it is important that controls are put in place and working effectively for future
hiring. Because veterinary medical officers are key in determining the safety of food for human
consumption, they must have the appropriate level of education needed to perform their job.

Recommendation 1
APHIS and FSIS should establish control procedures that (1) clarify the method and responsible
person to verify official transcripts, (2) determine what constitutes official transcripts, and (3)
establish acceptable methods of receiving official transcripts. The procedures should include
controls to determine and document whether transcripts are official when received and to ensure
official documents are filed into the eOPF.

FSIS Response
The Agency agrees and has begun the implementation of recommendation 1. FSIS' Human
Resources Office (HRO) wrote internal policy guidance that outlines methods and

8    AUDIT REPORT 50601-0001-31
responsibilities related to the receipt and verification of official transcripts. FSIS has begun
requiring that all applicants have their official transcripts sent directly from the veterinary
college, in a sealed envelope or in an official electronic format, to the HRO before the new hires
can report for duty. The new written procedures will be outlined in an advisory memo expected
to be completed by March 2013.

OIG Position
We accept management decision for this recommendation.

APHIS Response
APHIS agrees with this recommendation. For the veterinarians it hires, APHIS will develop and
implement an internal standard operating procedure (SOP) that will: (1) specify the responsible
person to receive and verify official transcripts; (2) define an official transcript; (3) establish
acceptable methods of receiving official transcripts; and (4) establish a method in which original,
official transcripts are annotated in the eOPF personnel system as having been verified as an
original, official transcript. APHIS will have the SOP completed by January 31, 2013. In
addition, training will be provided to APHIS' Human Resources Division personnel to ensure
understanding and uniform compliance with the requirements listed in the SOP.

OIG Position
We accept management decision for this recommendation.

Recommendation 2
APHIS and FSIS should establish control procedures clarifying the method and responsible
person to verify supporting documentation for equivalent degrees for foreign-educated
veterinarians and specialized experience for higher pay for tentatively selected applicants. These
procedures should include controls regarding verification of reference checks when specialized
experience qualifies the applicant for higher pay.

FSIS Response
The agency agrees with recommendation 2 and will issue and implement internal policy
guidance that outlines methods and responsibilities related to verifying equivalent degrees and
specialized experience. This new guidance will:

   ·   clarify the method and responsible person to verify supporting documentation for
       equivalent degrees for foreign-educated veterinarians; and
   ·   create mechanisms to review and then verify, if necessary, any questionable claims of
       specialized experience by tentatively selected applicants, especially if needed to receive
       higher pay.



                                                              AUDIT REPORT 50601-0001-31            9
FSIS will revise its procedures for applicants who have received their DVM degree from a
foreign veterinary medical school that is not accredited by the AVMA. In order to determine
eligibility, FSIS will expect original documents, from the AVMA or from the AVMA accredited
veterinary college, used to meet DVM equivalency. If the applicant meets DVM equivalency
with a veterinary license, FSIS will verify possession of a permanent, full and unrestricted
license to practice veterinary medicine in the United States, prior to making an eligibility
determination . These written procedures will also be outlined in an advisory memo.

FSIS will continue to adhere to the Agency's policy guidance, including all Agency issued
advisory memos. These advisory memos outline the Agency's policy regarding specialized
experience and higher than minimum pay setting authority under the Public Health Human
Resources System, and they comply with 5 CFR 531.212. The advisory memos also specifically
address the Delegation of Authority for higher than minimum pay setting based on specialized
experience. FSIS expects to complete implementation of these actions by March 2013.

OIG Position
We accept management decision for this recommendation.

APHIS Response
APHIS agrees with this recommendation. In the same SOP referenced in recommendation 1,
APHIS will establish the responsible person to verify supporting documentation for equivalent
degrees for foreign-educated veterinarians and specialized experience for higher pay for
tentatively selected APHIS applicants. The SOP will also contain procedures regarding
reference checks for when specialized experience qualifies the applicant for higher pay. APHIS
expects to complete implementation of these actions by January 31, 2013.

OIG Position
We accept management decision for this recommendation.




10     AUDIT REPORT 50601-0001-31
Scope and Methodology
We performed this audit to assess the controls for verifying credentials of veterinarians
employed by USDA or those used to carry out USDA functions. We performed fieldwork from
November 2011 to June 2012. Our review was conducted at APHIS' national offices in
Washington, D.C. and Riverdale, Maryland, as well as OPM's national office in Washington,
D.C. We visited APHIS' and FSIS' HR offices in Minneapolis, Minnesota, the APHIS Iowa area
office in Des Moines, Iowa, and FSIS district offices in Des Moines, Iowa, and Beltsville,
Maryland. We met with FSIS national officials on two occasions to discuss controls in place to
hire veterinarians and to brief the officials on the results of our review. Rather than expanding
our audit to review additional case files, we modified the audit steps to further develop the issues
we identified in the existing control environment.

To accomplish our objectives, we performed the following audit procedures:

·   Interviewed officials from APHIS' national office as well as APHIS' and FSIS' HR offices to
    determine what controls were in place to hire veterinarians.
·   Interviewed officials responsible for selecting candidates in the APHIS area office, APHIS
    regional office, and two FSIS district offices to better understand their role in hiring
    veterinarians.
·   Interviewed APHIS national office officials to understand how they ensure oversight of the
    National Veterinarian Accreditation program.
·   Interviewed APHIS area office officials to better understand their role in accrediting
    non-Federal veterinarians.
·   Interviewed OPM national office officials to better understand their qualification standards,
    policies, guidance, and other documents related to the hiring of veterinarians.
·   Identified and reviewed APHIS' and FSIS' written policies and procedures, guidance,
    instructions, and administrative notices related to the hiring of veterinarians.
·   Identified and reviewed OPM's qualification standards, guidance, memoranda, delegated
    examining operations handbook, etc., to gain an understanding of OPM's requirements to
    determine applicants' eligibility.
·   Identified and reviewed documentation supporting the hiring and accrediting of veterinarians
    in our sample, including applications, resumes, Notification of Personnel Action (OPM's
    SF-50), Request for Personnel Action (OPM's SF-52), unofficial and official transcripts,
    State licenses, approval letters from accredited veterinary schools, proof of English language
    proficiency, National Veterinarian Accreditation training records, certifications, etc.
·   Identified and reviewed published policies and procedures, regulations, application forms,
    fact sheets, training presentations, Veterinary Services Process Streamlining (VSPS) system
    information, and other documents related to the National Veterinarian Accreditation program
    to gain an understanding of the provisions, requirements, and controls related to the program.
·   Reviewed 41 randomly selected veterinarian electronic personnel files, using a template to
    determine if the files contained the required documentation to support the eligibility
    determinations.
·   Reviewed 20 randomly selected accredited non-Federal veterinarian files, using a template
    and the VSPS system to determine if the files contained the required documentation to

                                                             AUDIT REPORT 50601-0001-31          11
     support the accreditation determinations. Although we relied on information from the VSPS
     system, we did not verify information in the system, nor did we test any of the data for
     accuracy or validity.

As of 2011, APHIS and FSIS employed 1,713 veterinary medical officers (VMOs). APHIS
employs 673 VMOs, of whom 30 were hired in fiscal year 2010 and 34 in fiscal year 2011.21
We randomly selected 21 of these 64 veterinarians for our record review.

As of December 2011, APHIS accredited 63,160 non-Federal veterinarians, of whom 2,893 were
accredited in fiscal year 2010 and 3,094 veterinarians in fiscal year 2011. We randomly selected
20 of these 5,987 veterinarians for our record review.

FSIS employs 1,040 VMOs, of whom 103 were hired in fiscal year 2010 and 82 were hired in
fiscal year 2011.22 We randomly selected 20 of these 185 veterinarians for our record review.
The majority of both agencies' veterinarians are educated in the United States; less than a quarter
of veterinarians in the United States receive educations from foreign, non-accredited
institutions.23

Our audit was conducted in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions.




21
   As of November 30, 2011.
22
   As of December 1, 2011.
23
   This number is based on an approximation from FSIS, as well as our random sample.

12      AUDIT REPORT 50601-0001-31
Abbreviations
APHIS ......................... Animal and Plant Health Inspection Service
AVMA ........................ American Veterinary Medical Association
DVM ........................... Doctor of Veterinary Medicine
eOPF ........................... electronic Official Personnel File
FSIS............................. Food Safety and Inspection Service
HR ............................... Human Resources
HRO ............................ Human Resources Office
OIG ............................. Office of Inspector General
OPM ............................ Office of Personnel Management
SOP ............................. Standard Operating Procedure
USDA.......................... United States Department of Agriculture
VMO ........................... Veterinary Medical Officer
VSPS ........................... Veterinary Services Process Streamlining




                                                                 AUDIT REPORT 50601-0001-31   13
14   AUDIT REPORT 50601-0001-31
Agencies' Responses




                  USDA's
             FSIS' AND APHIS'
        RESPONSES TO AUDIT REPORT




                        AUDIT REPORT 50601-0001-31   15
      United States         Food Safety            Washington, D.C.
      Department of         and Inspection         20250
      Agriculture           Service



        TO:       Gil H. Harden
                  Acting Assistant Inspector General
                  Office of Inspector General

   FROM:          Alfred V. Almanza    / s / December        6, 2012
                  Administrator
                  Food Safety and Inspection Service

SUBJECT:          Office of Inspector General (OIG) Official Draft Audit Report – Verifying
                  Credentials of Veterinarians Employed or Accredited by USDA, Report number
                  50601-0001-31


The Food Safety and Inspection Service (FSIS) appreciates the opportunity to review and
comment on the draft audit report: Verifying Credentials of Veterinarians Employed or
Accredited by USDA. We have provided one comment and responded to the two
recommendations.

FSIS Comment The report’s characterization that FSIS’ Human Resources Office (HRO) did
not adequately verify prospective veterinarians’ educational requirements, equivalent degrees
and specialized experience is inaccurate. FSIS agrees that more guidance is needed; however,
we do verify all candidates’ submissions per relevant Office of Personnel Management (OPM)
guidance to ensure candidates are qualified for the veterinarian positions they apply for.

OIG Recommendation 1 APHIS and FSIS should establish control procedures that (1) clarify
the method and responsible person to verify official transcripts, (2) determine what constitutes
official transcripts, and (3) establish acceptable methods of receiving officials transcripts. The
procedures should include controls to determine and document whether transcripts are official
when received and ensure official documents are filed into the electronic Official Personnel
Folder (eOPF).
          FSIS Response The Agency agrees and has begun the implementation of
          recommendation 1. FSIS HRO wrote internal policy guidance, that outlines methods
          and responsibilities related to the receipt and verification of official transcripts. FSIS has
          begun requiring that all applicants have their official transcripts sent directly from the
          veterinary college, in a sealed envelope or in an official electronic format, to the HRO
          before the new hires can report for duty. The new written procedures will be outlined in
          an advisory memo.
          Completion Date: FSIS will complete the advisory memo by March 2013.

OIG Recommendation 2 APHIS and FSIS should establish control procedures clarifying the
method and person responsible for verifying the supporting documentation for equivalent
degrees for foreign-educated veterinarians and specialized experience for higher pay for
tentatively selected applicants. These procedures should include controls regarding verification
of reference checks when specialized experience qualifies the applicant for higher pay.
        FSIS Response The Agency agrees with recommendation 2 and will issue and
        implement internal policy guidance that outlines methods and responsibilities related to
        verifying equivalent degrees and specialized experience. This new guidance will:


FSIS Form 2630-9 (6/86)              EQUAL OPPORTUNITY IN EMPLOYMENT AND SERVICES
                                            2


           •   clarify the method and responsible person to verify supporting documentation for
               equivalent degrees for foreign- educated veterinarians; and
           •   create mechanisms to review and then verify, if necessary, any questionable
               claims of specialized experience by tentatively selected applicants, especially if
               needed to receive higher pay.

       FSIS will revise its procedures for applicants who have received their DVM degree from
       a foreign veterinary medical school that is not accredited by the American Veterinary
       Medical Association, Council on Education (AVMA). In order to determine eligibility,
       FSIS will expect original documents, from the AVMA or from the AVMA accredited
       veterinary college, used to meet DVM equivalency. If the applicant meets DVM
       equivalency with a veterinary license, FSIS will verify possession of a permanent, full
       and unrestricted license to practice veterinary medicine in the United States, prior to
       making an eligibility determination. These written procedures will also be outlined in an
       advisory memo.

       FSIS will continue to adhere to the Agency’s policy guidance; including all Agency
       issued advisory memos. These advisory memos outline the Agency’s policy regarding
       specialized experience and higher than minimum pay setting authority under the Public
       Health Human Resources System (PHHRS), and they comply with 5 CFR 531.212. The
       advisory memos also specifically address the Delegation of Authority for higher than
       minimum pay setting based on specialized experience.
       Completion Date: FSIS will complete full implementation of the actions stated above by
       March 2013.

If you have any questions, please contact Jane Roth, Deputy Assistant Administrator, Office of
Program Evaluation, Enforcement and Review, at (202) 720-8609.
United States
Department of
                         MEMORANDUM
Agriculture

Animal and Plant
                         TO:                Gil H. Harden               December 5, 2012
Health Inspection                           Assistant Inspector General
Service
                                              for Audit
Washington, DC
20250
                         FROM:               Kevin Shea /s/
                                             Acting Administrator

                         SUBJECT: APHIS Response on OIG Report, “Verifying Credentials
                                  of Veterinarians Employed or Accredited by USDA”
                                  (50601-01-31)

                         The Animal and Plant Health Inspection Service (APHIS) appreciates the
                         opportunity to comment on this report. We have addressed below each
                         Recommendation along with our planned corrective actions and the timeframes for
                         implementation of these actions, as they pertain to APHIS.

                         Recommendation 1: APHIS and FSIS should establish control procedures that
                         (1) clarify the method and responsible person to verify official transcripts,
                         (2) determine what constitutes official transcripts, and (3) establish acceptable
                         methods of receiving official transcripts. The procedures should include controls to
                         determine and document whether transcripts are official when received and ensure
                         official documents are filed into the eOPF.

                         APHIS Response: APHIS agrees with this Recommendation. For the
                         veterinarians it hires, APHIS will develop and implement an internal standard
                         operating procedure (SOP) that will: (1) specify the responsible person to receive
                         and verify official transcripts; (2) define an official transcript; (3) establish
                         acceptable methods of receiving official transcripts; and (4) establish a method in
                         which original, official transcripts are annotated in the eOPF personnel system as
                         having been verified as an original, official transcript. APHIS will have the SOP
                         completed by January 31, 2013. In addition, training will be provided to APHIS’
                         Human Resources Division personnel to ensure understanding and uniform
                         compliance with the requirements listed in the SOP.

                         Recommendation 2: APHIS and FSIS should establish control procedures
                         clarifying the method and responsible person to verify supporting documentation
                         for equivalent degrees for foreign-educated veterinarians and specialized experience
                         for higher pay for tentatively selected applicants. These procedures should include
                         controls regarding reference checks when specialized experience qualifies the
                         applicant for higher pay.



                    Safeguarding American Agriculture
                                                                                           Federal Relay Service
                    APHIS is an agency of USDA’s Marketing and Regulatory Programs         (Voice/TTY/ASCII/Spanish)
                    An Equal Opportunity Provider and Employer                             1-800-877-8339
Agency Response: APHIS agrees with this Recommendation. In the same SOP
referenced above, APHIS will establish the responsible person to verify supporting
documentation for equivalent degrees for foreign-educated veterinarians and
specialized experience for higher pay for tentatively selected APHIS applicants.
The SOP will also contain procedures regarding reference checks for when
specialized experience qualifies the applicant for higher pay. Again, this SOP will
be completed by January 31, 2013.
Informational copies of this report have been distributed to:

Government Accountability Office

Office of Management and Budget

Office of the Chief Financial Officer
 Attn: Director, OCFO, Planning and Accountability Division
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
